NO: 20-7958
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
ANDERSON JEAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I hereby certify that on this 31st day of August, 2021, a true copy of Petitioner
Anderson Jean’s Reply to the Brief of the United States in Opposition was mailed
through the United States Postal Service, first-class mail, postage prepaid, to Brian
H. Fletcher, Acting Solicitor General of the United States, Office of the Solicitor
General, U.S. Department of Justice Room 5616, 950 Pennsylvania Avenue, N.W.,
Washington D.C. 20530.

/s/
Timothy Cone
Counsel for Petitioner Anderson Jean
1615 New Hampshire Avenue N.W.
4th floor (North)
Washington, D.C. 20009
Tel. (202) 862-4333

